January 2008
Report No. EVAL-08-004


The FDIC’s Transit Subsidy Program


                          
                                                                                                            Executive Summary
                                                                                                        Report No. EVAL-08-004
                                                                                                                   January 2008

                                             The FDIC’s Transit Subsidy Program
                                             Results of Evaluation
                                             The FDIC has established policy for the transit subsidy program that addresses
                                             employee eligibility requirements, program office and employee responsibilities, and
                                             procedures for employees to follow when participating in the program. This policy
                                             addresses most of the controls suggested by GAO and the Office of Management and
                                             Budget to ensure that qualified employees receive the correct subsidy amount.
Background and Purpose of                    However, the policy does not include, nor did we identify, sufficient operating
Evaluation                                   procedures for the headquarters or Dallas transit subsidy programs.

The Federal Employees Clean Air              The FDIC has also implemented program controls that help to ensure that employees
Incentives Act required federal              comply with procedures. Our evaluation testing identified no instances of employee
agencies to implement transit benefit        abuse of the transit subsidy program, such as:
programs for eligible employees.
                                             • Transferring or selling fare card media to unauthorized recipients,
The FDIC implemented its Transit
                                             • Participating in both the transit subsidy and FDIC parking programs, or
Subsidy Program in April 2000 to             • Claiming or receiving inflated or unsupported subsidy amounts.
encourage employees to use mass
transit in an effort to reduce the use of    However, we did see several areas where DOA could strengthen program controls.
petroleum-based products, air                For example, headquarters transit staff could do more to:
pollution, noise, and traffic congestion     • Independently verify an applicant’s home address,
in major metropolitan areas when             • Consistently sign applications to evidence review and authorization,
commuting from their residence to            • Improve transit subsidy file maintenance,
their permanent duty station. The            • Periodically recertify program participant information, and
FDIC utilizes the Department of              • Reiterate to employees their responsibilities under the program.
Transportation (DOT) to distribute
fare media nationally to FDIC
                                             Our testing also indicated that headquarters employees participating in the transit
employees. DOA’s Security and
                                             subsidy program could do more to meet their program responsibilities by (1) notifying
Emergency Preparedness Section
(SEPS) is responsible for                    DOA of changes in name, address, or commuting cost and (2) adjusting subsidy
administering the Transit Subsidy            amounts (or returning unused fare media) due to extended leave or travel or when
Program.                                     leaving the transit subsidy program.

We conducted this review because the         In October 2007, DOA announced headquarters program changes to strengthen
U.S. Government Accountability               program controls related to:
Office (GAO) and other federal               • Mandating the use of SmarTrip® Cards that are easier to control and track than
Inspectors General have recently                 paper fare media,
reported instances of federal                • Automating the Application for Transit Subsidy and requiring employees to
employees abusing transit benefit                annually recertify their eligibility and commuting cost information.
programs.
                                             We also found that DOA had implemented a number of internal controls over the
Our evaluation objective was to review       Dallas transit subsidy program; however, we identified opportunities to:
the FDIC’s efforts to monitor and            • Improve separation of duties so that the administration and safeguarding of fare
efficiently administer its transit subsidy
                                                 media was not the responsibility of one individual,
program. To accomplish our objective,
we assessed the extent to which the
                                             • Improve transit records to allow for an independent review of transactions, and
FDIC has (1) established policies and        • More consistently provide DOT with program participant information.
procedures necessary to ensure that only
qualified employees receive the subsidy      OIG Recommendations and Management Response
and that they receive the correct amount;
and (2) implemented controls and             We made recommendations to improve controls for the headquarters and Dallas transit
ensured that FDIC employees are              subsidy programs related to local operating procedures, records management,
complying with established procedures.       employee awareness, separation of duties, controls over transit passes, and accuracy of
                                             participant data. DOA management concurred with all of our recommendations and
To view the full report, go to               plans to have responsive corrective actions implemented between January and March
www.fdicig.gov/2008reports.asp               2008.
                             TABLE OF CONTENTS

BACKGROUND                                                      1

ESTABLISHMENT OF TRANSIT SUBSIDY PROGRAM CONTROLS               3

   Recommendation                                               4

IMPLEMENTATON OF TRANSIT SUBSIDY PROGRAM CONTROLS               4

   Results of Testing for Program Abuse by FDIC Employees       4

   Headquarters Transit Subsidy Program Controls                5

   Employee Transit Subsidy Responsibilities                    7

   DOA Planned Program Enhancements                             8

   Dallas Transit Subsidy Program Controls                      9

   Recommendations                                              11

TABLES

   Table 1: Transit Subsidy Costs for 2006                      2
   Table 2: Key Program Controls Addressed in Circular 3440.1   3
   Table 3: DART Transit Programs                               9
   Table 4: Inventory of Transit Passes Purchased and           10
            Issued for 2006 and 2007

CORPORATION COMMENTS AND OIG EVALUATION                         12

Appendix I: Objective, Scope, and Methodology                   13
Appendix II: Corporation Comments                               15
Appendix III: Management Responses to Recommendations           18
Federal Deposit Insurance Corporation                                                          Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General



DATE:                                     January 3, 2008

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration


FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Evaluations and Management


SUBJECT:                                  The FDIC’s Transit Subsidy Program
                                          (Report No. EVAL-08-004)

This report presents our evaluation of the FDIC’s transit subsidy program. We performed this
evaluation because recent audits conducted by the U.S. Government Accountability Office
(GAO) and other federal Inspectors General reported instances of federal employees abusing
agency transit benefit programs. The overall objective of this evaluation was to evaluate the
FDIC’s efforts to monitor and efficiently administer its transit subsidy program. To accomplish
this objective, we assessed the extent to which the FDIC has (1) established policies and
procedures necessary to ensure that only qualified employees receive the subsidy and that they
receive the correct amount; and (2) implemented controls to ensure that FDIC employees are
complying with established procedures. Additional details on our objective, scope, and
methodology are provided in Appendix I.

BACKGROUND

The Federal Employees Clean Air Incentives Act codified at 5 U.S.C. Paragraph 7905 was
enacted in 1993 and took effect on January 1, 1994 as part of a national effort to improve air
quality and to reduce traffic congestion. The Clean Air Act provides discretion to Executive
Branches of the Federal Government to establish programs encouraging employees to commute
by means other than single occupancy motor vehicles. In April 2000, Executive Order 13150,
Federal Workforce Transportation, required federal agencies in the National Capital Region to
implement a “transit pass” transportation fringe benefit program for qualified federal employees.
Federal agencies can either distribute transit passes directly to employees or contract with the
U.S. Department of Transportation (DOT) for distribution.

The FDIC implemented the transit subsidy program in April 2000 and currently has over 1,000
employee participants in the program nationwide. The objective of the transit subsidy program
is to encourage employees to use mass transit in an effort to reduce the use of petroleum-based
products, air pollution, noise, and traffic congestion in major metropolitan areas when
commuting from their residence to their permanent duty station. The FDIC utilizes DOT’s
TRANServe organization to distribute fare media to FDIC employees. TRANServe orders and
safeguards fare media and provides disbursing agents to FDIC on an agreed-upon schedule and
at specific sites. The FDIC is responsible for establishing and implementing internal controls
over its employees’ eligibility and the amount each employee receives as a transit subsidy.

The FDIC’s Division of Administration (DOA) issued Circular 3440.1, The Federal Deposit
Insurance Corporation Transit Subsidy Program, on May 17, 2002. The Circular establishes
overall corporate policy; general procedures and guidelines for participating in the transit subsidy
program; employee responsibilities; and program office responsibilities for implementing,
administering, and monitoring the FDIC transit subsidy program. DOA established transit
subsidy program managers (TSPM) and transit subsidy coordinators (TSC) in both headquarters
and its regional offices to manage and conduct oversight of the transit subsidy program. In
addition to coordinating program requirements with DOT, TSC responsibilities include but are
not limited to: (1) receiving, reviewing, approving, or disapproving transit subsidy applications;
(2) identifying and processing employees terminating participation in the transit program; and
(3) collecting unused fare media or funds owed when employees separate from the FDIC or the
transit program.

The success of the FDIC’s transit subsidy program is based upon an honor system, thus FDIC’s
employees play a major role in this regard. In order for the program to be successful, employees
must understand their responsibilities under Circular 3440.1 and abide by requirements of the
program. Circular 3440.1 lists 15 responsibilities that employees must follow when participating
in the transit subsidy program.

As shown in Table 1, the FDIC spent
approximately $1.1 million on the transit        Table 1: Transit Subsidy Costs for 2006
                                                          FDIC            Transit
programs in its headquarters and regional                 Offices       Amounts Spent      Percentage
offices during 2006. During this evaluation,
we reviewed the transit subsidy programs         Chicago                   $104,249            9
for FDIC headquarters in Washington, D.C.
and Arlington, Virginia, and the Dallas          Dallas                    $78,710             7
Regional Office. The Washington, D.C.
                                                 Headquarters              $617,094            55
metropolitan area is serviced by METRO.
Dallas is serviced by the Dallas Area Rapid      New York                  $155,883            14
Transit (DART). DART offers several
different program packages to its customers      San Francisco             $132,565            12
with cost incentives for the purchase of an
                                                 Other FDIC Regions        $24,891             3
annual pass for all employees of an
organization.                                    TOTALS                   $1,113,392         100%
                                                 Source: OIG Analysis




                                                 2
ESTABLISHMENT OF TRANSIT SUBSIDY PROGRAM CONTROLS

The FDIC has established policy for the transit subsidy program through Circular 3440.1. This
Circular provides relevant definitions for the program, employee eligibility requirements,
program office and employee responsibilities under the program, and procedures for employees
to follow when participating in the program. This policy addresses most of the controls
suggested by GAO and OMB to ensure that qualified employees receive the correct subsidy
amount. However, the policy does not include, nor did we identify, sufficient operating
procedures for the headquarters or Dallas transit subsidy programs.

In April 2007, GAO reported that weaknesses in program controls may have contributed to fraud
and abuse of the transit benefit program at federal agencies. 1 GAO identified 10 critical program
control elements and reviewed transit benefit program policies and procedures at selected federal
agencies for evidence of those control elements. OMB included the same internal controls in its
May 2007 memorandum, Federal Transit Benefits Program (M-07-15), and asked agencies to
assert that the 10 controls were in place. We reviewed FDIC Circular 3440.1 and found that the
Circular addressed most of the internal control areas, as shown in Table 2.

Table 2: Key Program Controls Addressed in Circular 3440.1
Key Program Controls                Addressed    OIG Comments
                                    in Policy?
Application Requirements
Home Address                        Yes          Addressed in the Application for Transit Subsidy (FDIC Form
Work Address                        Yes          3440/01)
Commuting Cost Breakdown            Yes
Certification Statement             Yes
False Statement Warning             Yes
Verification
Commuting cost verified by          Partially    The Circular indicates that TSCs are responsible for receiving,
approving official                               reviewing, approving, or disapproving applications. The Circular
Eligibility verified by approving   Yes          does not specifically discuss verifying commuting costs; however,
official                                         DOA is doing this in practice. The Circular includes eligibility
                                                 requirements.
Implementation
Applicants checked against          Partially The Circular indicates that employees participating in the transit
parking benefits records                      subsidy program are responsible for relinquishing FDIC-provided
                                              parking privileges. As discussed later, the TSC is performing tests
                                              to ensure employees do not participate in both programs.
Benefits adjusted due to travel, Yes          The Circular indicates that employees are responsible for notifying
leave, or change of address                   the TSC of unused fare media due to vacation, extended leave, or
                                              travel.
Removal from transit benefits    Yes          The Circular indicates that TSCs are responsible for identifying
program included in exit                      and processing employees terminating participation in the program.
procedures                                    This is also listed as an employee responsibility.
Source: OIG analysis of GAO and OMB program elements and FDIC Circular 3440.1.


1
 GAO-07-724T, Federal Transit Benefit Program: Ineffective Controls Result in Fraud and Abuse by Federal
Workers, dated April 24, 2007.




                                                      3
We concluded that the FDIC’s policy and transit                       Examples of Transit Subsidy Operational
subsidy application form generally addressed the critical             Procedures
elements suggested by GAO and OMB. In June 2007,                      • Operational steps that the TSCs should take in
DOA responded to OMB that the FDIC had sufficient                         receiving, reviewing, and processing FDIC
                                                                          employees applying or withdrawing from the
internal controls in place to monitor its transit program.
                                                                          transit subsidy program.
                                                                      • Operational procedures specific to the local
However, we noted that Circular 3440.1 does not                           forms of transportation (e.g., WMATA or Metro
include, nor did we identify, sufficient operational                      in Washington, D.C.).
procedures to guide the headquarters or regional TSCs                 • Control procedures for ensuring eligibility of
in carrying out their program responsibilities. The                       program participants, such as verifying home
                                                                          address, validating continued employment, and
sidebar presents examples of program matters that such                    ensuring that program participants are not in
operational procedures could address. Operational                         other subsidized commuter or parking programs.
procedures would help to ensure that the TSCs                         • Liaison or reporting of information to the DOT
implement the transit subsidy program consistently and                    TRANServe coordinator.
as FDIC management intended.                                          • Record keeping and file maintenance
                                                                          requirements and procedures for safeguarding or
                                                                          inventorying fare media.
Recommendation

The Circular requires operational procedures for each regional office, accordingly, we
recommend that the Director, DOA:

1. Strengthen operational procedures to guide headquarters and Dallas transit subsidy
   coordinators in carrying out their program responsibilities.


IMPLEMENTATION OF TRANSIT SUBSIDY PROGRAM CONTROLS

The FDIC has implemented program controls that help to ensure that employees comply with
procedures. Our evaluation testing identified no instances of employee abuse of the transit
subsidy program. However, we identified several areas where DOA could strengthen program
controls for the headquarters and Dallas transit subsidy programs. We also concluded that
employees participating in the program could do more to meet their program responsibilities.
Notably, DOA has recently announced or implemented several enhancements to the headquarters
transit subsidy program that strengthen program controls and address several of our observations.

Results of Testing for Program Abuse by FDIC Employees

As part of our evaluation, we performed independent tests to confirm that program controls were
working as intended and to ensure that employees were not abusing the transit subsidy program.
Our tests included reviewing Web sites such as E-Bay and Craig’s List to ensure FDIC
employees were not transferring or selling fare card media to unauthorized recipients. 2 We also

2
  We identified three advertisements that involved selling Metro passes. Nothing came to our attention to suggest
that FDIC employees were involved in these advertisements. We did not perform additional evaluation procedures
to determine whether these advertisements involved FDIC or federal employees or federal transit benefit media
because there was no indication, such as an FDIC phone number, that FDIC employees were involved and because
DOA periodically screens these Web sites for the improper sale of fare media.




                                                        4
examined a list of participants in the FDIC’s parking program and compared it with a list of
transit subsidy program participants to ensure that no FDIC employees were receiving duplicate
benefits from the two programs. Finally, we recalculated transit subsidy amounts for a sample of
60 headquarters employees to ensure that they were receiving the correct amount. Based on our
testing, no instances came to our attention to suggest that these employees were:

•   Transferring or selling fare card media to unauthorized recipients,
•   Participating in both the transit subsidy and FDIC parking programs,
•   Claiming or receiving inflated or unsupported subsidy amounts, or
•   Receiving transit benefits in excess of Internal Revenue Service tax-free limits. 3

Headquarters Transit Subsidy Program Controls
                                                                         Examples of Transit Subsidy Program Controls
We confirmed that DOA headquarters has implemented                       • Receive, review, and approve transit subsidy
program controls that help to ensure that employees                         applications. This includes confirming and
                                                                            recalculating the correct subsidy amount based
comply with procedures. Through interviews and file                         on the participant’s home and office address
reviews, we determined that DOA Security and                                and work schedule,
Emergency Preparedness Section (SEPS) staff routinely                    • Maintain the Application for Transit Subsidy
carries out the control procedures presented in the                         on file for program participants,
sidebar.                                                                 • As part of the pre-exit clearance process,
                                                                            coordinate with employees leaving the FDIC
                                                                            to retrieve any unused fare media,
We also confirmed that the headquarters TSC                              • Periodically verify that transit subsidy
periodically reviews advertisement Web sites such as E-                     program participants are not also participating
Bay and Craig’s List to ensure that FDIC employees are                      in the FDIC parking program, and
not illegally transferring FDIC-issued fare media.                       • Safeguard unused fare media in a locked file
                                                                            cabinet.
GAO’s Standards for Internal Control in the Federal
Government provides a framework for establishing and maintaining internal control and for
identifying and addressing major performance and management challenges and areas at greatest
risk of fraud, waste, abuse and mismanagement. The Standards note that control activities,
which include approvals and authorizations, verifications, the creation and maintenance of
related records and adequate documentation, help to ensure management’s directives are carried
out.

We determined that DOA headquarters could strengthen program control activities as follows:

•   Independent verification of employee address: SEPS does not currently verify transit subsidy
    applicants’ home addresses with Corporate Human Resources Information System (CHRIS)

3
  We determined that 42 FDIC employees received transit benefits in excess of IRS limitations of $1,260 during
calendar year 2006. Payments ranged from $1,275 to $1,575. This situation occurred because of DOT’s quarterly
distribution schedule. However, DOT and Division of Finance officials responsible for employee tax issues
indicated that employees are allowed to receive up to 3 months’ worth of transit benefit without incurring a tax
liability. IRS regulations under Section 132 (f) state that transit passes distributed in advance to an employee are
excludable from wages for employment tax purposes if the employer distributes transit passes to the employee in
advance for not more than 3 months. None of the FDIC employees received in excess of 3 months of transit
subsidy benefits.




                                                          5
    data at the time an application is processed and reviewed. This verification is a standard
    control that is recommended by GAO and OMB and would provide assurance that the
    subsidy amount is based on the correct commuting distance. A SEPS official indicated that
    in the future SEPS would develop a process with the FDIC’s Human Resources Branch to
    verify addresses of transit subsidy program participants.

•   Approval of applications to evidence review and authorization: Eight of the 60 application
    forms that we reviewed had not been signed by the TSC. Although this condition may be an
    administrative oversight, all forms should be signed indicating approval of the application.
    We did see indications that the TSC recalculated the transit subsidy amount to ensure
    accuracy and that the TSC verified an applicant’s work schedule by contacting the
    applicant’s supervisor by e-mail.

•   Maintenance of transit subsidy participant files: DOA personnel could not locate files for 11
    of the 60 program participants that we sampled (18 percent). Most of the missing files were
    for participants who had left the FDIC; however, 4 of the 11 missing files were for
    employees currently enrolled in the transit program.

•   Periodic recertification of program participant information: A number of files that we
    reviewed (26 percent, 13 files of the sample files that were available for review) contained
    applications for transit subsidy that were dated 2003 or earlier and lacked evidence of
    periodic applicant recertification. DOA also acknowledged that it had not performed a
    complete recertification of transit program participants since 2003. DOA automated the
    Application for Transit Subsidy and required program participants to recertify their eligibility
    and commuting cost information during October and November 2007. These actions will
    enhance controls over the program.

•   Reiterating to employees the need to notify DOA of personal or scheduling changes: As
    discussed later, Circular 3440.1 includes a number of employee program responsibilities,
    such as informing the TSC of changes in employee address or commuting costs. As
    discussed later, our evaluation testing indicated that employees could do more to meet their
    program responsibilities. These findings could be indicative of a lack of employee
    awareness, and it may be prudent for DOA to periodically reiterate to FDIC employees their
    responsibilities under the transit subsidy program.




                                                 6
Employee Transit Subsidy Responsibilities
                                                                     Employee Transit Subsidy Program Responsibilities
Employees also have certain responsibilities under                   • Calculate their own commuting expenses.
the transit subsidy program, and the effectiveness                   • Certify eligibility, subsidy amount, and that the
of the program is substantially dependent upon                          participant will not transfer fare media to others.
engaged and responsible participants. The sidebar                    • Pick up fare media in person.
                                                                     • Protect fare media against loss or theft.
presents employee program responsibilities                           • Notify the TSC of any unused media at the end of a
detailed in Circular 3440.1.                                            quarter due to vacation, extended leave, or travel and
                                                                        either return unused fare media or collect a reduced
Based on our testing, we identified opportunities                       amount of media at the next distribution.
for employees to be more diligent in carrying out                    • Not stockpile fare media.
their responsibilities in the following areas:                       • Not use government-provided fare media in excess of
                                                                        Internal Revenue Service permitted limits.
                                                                     • Make repayments to the transit subsidy program for
Notifying DOA of a change in home address:                              any unused fare media.
Addresses on the Application for Transit Subsidy                     • Not accept additional or full subsidy at future
for 11 of the 60 files that we reviewed, or                             distributions when the employee has failed to use prior
18 percent, did not match records in CHRIS,                             subsidy amounts.
which contains the official address for FDIC                         • Surrender remaining fare media if withdrawing from
                                                                        the program or separating from the FDIC.
employees. We determined that 7 of the 11
applicants relocated and did not update their
addresses on the Application for Transit Subsidy; 3 of the 11 no longer work for the FDIC and
we were unable to determine which address was correct; and 1 of the 11 stated that the address
was correct for year 2006; however, the participant had recently relocated and withdrew from the
program. DOA’s new annual recertification program should help to address this issue in the
future.

Return of unused media due to vacation, leave, or travel or withdrawal from the program: We
reviewed 20 of our 60 sampled files to ensure that employees were adjusting transit subsidy
amounts when extensive leave or travel was taken in a quarter, as required by FDIC
Circular 3440.1. 4 To perform this analysis, we reviewed leave and travel records for the sampled
program participants. We determined that FDIC employees were not always adjusting transit
benefits when extended leave was taken. Three of the 20 participants in our sample took leave in
excess of 20 days during the year in review. In one case, a participant had 65 days of leave
during a year (i.e., 65 days equates to roughly 3 months of transit subsidy, or about $330). The
TSPM indicated that he was only aware of one FDIC employee that actually reduced the subsidy
amounts to reflect extended leave or travel in a particular quarter.

In addition, we found that 1 of the 11 applicants relocated and withdrew from the transit program
but still had over $200 in transit benefits that was never returned to the FDIC. We discussed this
matter with the FDIC’s TSPM, and the problem was resolved and reimbursement by the
employee was arranged.

Other employee-related issues: We also compared DOT records of transit benefits distributed to
FDIC employees during 2006 to the FDIC’s current employee list in CHRIS and identified two


4
    The Circular does not define what amount of leave or travel constitutes an “extended” leave or travel situation.




                                                            7
individuals that were not on the FDIC’s current employee list. One individual changed his name
without notifying SEPS of the change.

The second individual was from a foreign country and had been assigned to work at the FDIC for
a period of 2 years beginning in February 2005. The individual was paid transit subsidy benefits
totaling $1,584 from 2005 through 2006. Circular 3440.1 states that federal employees detailed
to the FDIC and independent contractors are ineligible to participate in the FDIC Transit Subsidy
Program. The TSPM stated he had no way of knowing the international status of this individual
because it was never brought to his attention. The TSPM also stated that the transit subsidy
application submitted indicated that the individual was an FDIC employee. The TSC also
verified the individual’s work schedule through a supervisor. Verification of the applicant’s
home address with CHRIS would have likely revealed that the applicant was ineligible for a
transit benefit.

DOA Planned Program Enhancements

During our review, DOA informed us of several planned enhancements to the headquarters
transit subsidy program. In October 2007, DOA announced headquarters program changes
related to requiring the use of SmarTrip® Cards and requiring an annual program recertification.

Mandatory SmartBenefits® Program use: Effective January 1, 2008, all employees receiving
transit benefits and using Metrorail, Metrobus, Virginia Rail Express, or a registered vanpool are
required to have their transit benefit downloaded to a registered SmarTrip® Card. The use of
SmarTrip® cards offers several control enhancements over paper fare media, including the
following:

•   the SmarTrip® Card is registered to the owner and not easily transferred to unauthorized
    users;
•   a maximum of $300 may be stored on the card, which should prevent participants from
    stockpiling unused fare media;
•   registered SmarTrip® Cards are insured against loss or theft; and
•   the mandatory use of SmarTrip® Cards will allow the FDIC to discontinue quarterly
    distribution of fare media by DOT and eliminate, or greatly reduce, the amount of fare media
    that the TSC has to safeguard.

On-line Application for Transit Subsidy and annual recertification: Beginning in October 2007,
all FDIC transit benefit participants in the National Capital Region are also required to annually
electronically recertify their eligibility to participate in the SmartBenefits® Program and the
regular transit subsidy program. The recertification process was open for a 4-week period during
October and November 2007. DOA also replaced the use of participants’ last four social security
number digits with the last six digits of the participants’ employee identification number in order
to protect personally identifiable information.

Collectively, these measures should strengthen program controls and address several of our
observations discussed in this report.




                                                8
Dallas Transit Subsidy Program Controls

We also found that DOA had implemented a number of internal controls over the Dallas transit
subsidy program; such as:

•   Receiving, reviewing, and approving transit subsidy applications;
•   Periodically verifying that transit subsidy program participants were not participating in the
    FDIC parking program; and
•   Safeguarding unused fare media.

However, we did identify opportunities to improve separation of duties, recordkeeping, and
communication of program information to DOT, as discussed below.

DART offers significantly discounted fare media for organizations that agree to purchase transit
passes for 100 percent of their employees. The Dallas Transit Subsidy Coordinator (DTSC)
performs a cost analysis annually to determine whether it is more economical to buy transit
passes for all Dallas employees or to buy transit passes only for those employees participating in
the Dallas transit subsidy program. The DTSC sends the cost analysis to the headquarters TSPM
for approval. During 2006 and 2007, the FDIC purchased passes for all FDIC Dallas employees
(but only distributed passes to employees participating in the transit subsidy program). Table 3
presents information from the 2006 cost analysis.

Table 3: DART Transit Programs
                                        Number of
                                                                               Total Transit
          Type of Transit Pass           Transit      Cost per Transit Pass
                                                                               Subsidy Cost
                                         Passes
 Platinum Pass for Entire Workforce       408        $190 for Annual Pass     $ 77,520

 Bronze Pass for Employees Using DART      124       $700 for Annual Pass     $ 86,800
 Transit Subsidy
 Monthly Pass for Employees Using          124       $70 for Monthly Pass x   $104,160
 DART Transit Subsidy                                12 months
Source: OIG Analysis

Because the DTSC purchases significantly more passes than are distributed, it is important that
the DTSC have strong controls over pass distribution and that excess passes are controlled and
safeguarded. In this regard, we identified the following areas where program controls could be
improved.

Segregation of duties: GAO identifies segregation of duties as a control activity to guard against
one individual controlling all key aspects of a transaction or event. Currently, the DTSC controls
all aspects of the transit subsidy program transaction to include receiving and distributing transit
passes, keeping related records, and maintaining custody of all transit passes that have not been
issued in a locked drawer in his office to which only he has access. We concluded that
segregation of duties over the Dallas transit subsidy program could be improved and that DOA
needs to identify ways to mitigate this control risk. For example, DOA could have another




                                                 9
employee maintain custody of the un-issued passes. Alternatively, DOA could have an
independent party periodically inventory the issued and un-issued passes.

Accurate and timely recording of transactions and events: GAO notes that transactions should be
promptly recorded to maintain their relevance and value to management in controlling operations
and making decisions. To ensure all passes were properly accounted for, we reconciled all
issued and un-issued passes for 2006 and 2007. As shown in Table 4, our review identified
discrepancies between the DTSC list of transit passes issued, un-issued passes, and the total
number of passes purchased.

Table 4: Inventory of Transit Passes Purchased and Issued for 2006 and 2007
                                            Discrepancy
                       DTSC List of        Between List of                   Total
                       Transit Passes     Passes Issued and   Un-Issued     Passes
  Calendar Year           Issued          Passes Purchased     Passes      Purchased
        2006                123                   13            272           408
        2007                122                   11            269           402
Source: OIG Analysis

Although we identified discrepancies of 13 and 11 passes for 2006 and 2007, respectively, the
DTSC provided application forms (3440/01) to support issuance of 8 of the 13 passes for 2006
and 10 of the 11 passes for 2007. Thus, we concluded that most of the discrepancies were due to
errors in the listing of transit passes issued. For the remaining six missing transit passes we were
able to confirm with three transit subsidy participants that they received the transit passes in
question. We could not determine the status of the remaining three missing transit passes.

Historical data of transit subsidy activity: GAO notes that accurate transaction recording applies
to the entire process or life cycle of a transaction or event from the initiation and authorization
through its final classification in summary records. GAO also notes that transactions should be
clearly documented, and the documentation should be readily available for examination. The
DTSC maintains a spreadsheet for its Dallas employees who participate in the Dallas transit
subsidy program and parking program. The master spreadsheet lists the participating employee
names and identifies the transit or parking pass issued to each employee and transit subsidy
passes that are returned or deactivated. In our review of the spreadsheet, we noted that the
spreadsheet does not always identify a date of when the employee receives the parking and
transit passes, or the date when the passes are returned or deactivated. The spreadsheet is also
continuously updated without saving and maintaining a record of activity for a given calendar
year. Therefore, no permanent record was available to enable us to review all transit activity that
occurred in 2006.

Discrepancies between FDIC, DOT, and DART transit subsidy participant data: We found
significant discrepancies between listings of program participants maintained by the FDIC, DOT,
and DART. For example, DOT’s participant list for 2006 included 185 participants of whom
59 had either terminated employment or retired from the FDIC in 2004 and 2005. Additionally,
DOT’s records reflected a $419 transit cost per employee when, in fact, the actual cost was
$190 per employee. A DOT representative informed us that DOT records were based on
information provided by the FDIC and it is the responsibility of the FDIC to keep DOT informed




                                                 10
of any changes related to participants receiving transit benefits. The representative added that if
changes are not provided to DOT, the employee participation list is not revised by DOT.

Although DOT records were inaccurate, we verified that the FDIC did not pay excessive costs
for transit benefits during 2006. DOT computed the transit media cost per employee by dividing
the total transit cost for 2006 of $77,520 by the 185 Dallas employees on their list. The FDIC
actually paid $77,520, which represented the actual cost of purchasing a $190 transit pass
multiplied by the entire Dallas workforce of 408 employees. The DOA records showed that 124
Dallas employees participated in the program in January 2006, and 12 additional employees
participated at varying times during 2006. We identified no instances of transit benefits being
provided to unauthorized recipients.

In addition, our review of the current DART database contained FDIC employees that were no
longer participating in the Dallas transit subsidy program. We advised the DTSC that DART’s
database was inaccurate and needed to be updated prior to issuance of the 2008 transit subsidy
passes. The DTSC is currently working with a DART representative to ensure that DART’s
database includes only FDIC employee names that are participating in the Dallas transit subsidy
program.

Although these discrepancies do not appear to have any monetary effect on the program, it is
important that DOA ensures that accurate information is provided to DOT and DART to ensure
the integrity of the federal transit benefits program.

Local standard operating procedures: As discussed earlier in this report, we are recommending
that DOA establish operating procedures for its headquarters and Dallas transit subsidy
programs. Circular 3440.1 requires the Regional TSCs to establish local standard operating
procedures based on guidance from the TSPM. Neither DOA headquarters nor the Dallas
Regional Office has guidance, specific operating instructions, or standard operating procedures
for their respective transit subsidy programs. We noted that the Atlanta DOA office established
in 2002, and revised in 2004, a standard operating procedure for its regional transit subsidy
program. Local operating procedures would improve internal controls over the regional transit
subsidy programs.

Recommendations

We recommend that the Director, DOA:

2. Establish and implement a procedure for routinely verifying transit subsidy program
   applicants’ home addresses against an official source of employee information, such as
   CHRIS.

3. Conduct a follow-up internal review to ensure that recently implemented enhancements to
   the program (on-line application and annual recertification) address observations that we
   identified in this report related to TSC review and authorization of the Application for Transit
   Subsidy and transit subsidy file maintenance issues.




                                                11
4. Increase employee awareness by periodically issuing communications to employees
   reminding them of their responsibilities under the program. Such reminders could be
   coordinated with the annual employee recertification process and should include:

   •   Notifying TSCs of changes in name, address, commuting cost, or work schedule; and
   •   Returning unused fare media resulting from extended leave or travel or withdrawal from
       the program.

5. Improve segregation of duties over the Dallas transit subsidy program or implement
   mitigating program controls such as independent inventories of issued and un-issued fare
   media.

6. Improve recordkeeping of Dallas transit subsidy program activity to properly account for all
   purchased fare media and to provide for a permanent record of transit subsidy activity.

7. Resolve discrepancies between Dallas transit subsidy program participant listings maintained
   by the Dallas TSC, DOT, and DART and implement controls to ensure that future listings are
   consistent.


CORPORATION COMMENTS AND OIG EVALUATION

On December 18, 2007, the DOA Director provided a written response to the draft report dated
December 12, 2007. The response is presented in Appendix II to this report. In its response,
DOA management concurred with all of our recommendations and plans to have responsive
corrective actions implemented between January and March 2008. These recommendations are
considered resolved but will remain open until we have determined that agreed-to corrective
actions have been completed and are effective. A summary of management’s response and
corrective actions is presented in Appendix III.




                                               12
                                                                                   APPENDIX I



                      OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of this evaluation was to evaluate the FDIC’s efforts to monitor and
efficiently administer its transit subsidy program. To accomplish this objective, we assessed the
extent to which the FDIC has (1) established policies and procedures necessary to ensure that
only qualified employees received the subsidy and that they received the correct amount; and
(2) implemented controls and ensured that FDIC employees are complying with established
procedures.

We conducted our review of the transit subsidy program in FDIC divisions and offices located in
Washington, D.C. and Arlington, Virginia, and Dallas, Texas. We did not review the FDIC’s
transit subsidy programs in any of the FDIC’s other regions. We conducted the evaluation from
May 2007 through October 2007 in accordance with Quality Standards for Inspections.

To accomplish our objectives we:

•   Reviewed policies and procedures, including FDIC Circular 3440.1, The Federal Deposit
    Insurance Corporation Transit Subsidy Program.
•   Reviewed various reports on transit subsidy programs conducted by other government
    agencies, including GAO Report No. GAO-07-724T, Federal Transit Benefits Program:
    Ineffective Controls Result in Fraud and Abuse by Federal Workers; the Federal Trade
    Commission (FTC) report entitled, Audit of the FTC’s Transit Subsidy Program for Fiscal
    Year 2003; and DOT Report No. CC-2007-048, Opportunities to Improve Internal Controls
    Over the Federal Transit Benefits Program.
•   Interviewed DOA personnel responsible for monitoring the FDIC’s transit subsidy program
    at headquarters and Dallas.
•   Interviewed and obtained documents from DART officials related to the transit system in
    Dallas.
•   Interviewed responsible DOT officials and obtained various documents to support specific
    transit issues related to the FDIC in both the Washington, D.C. metropolitan area and Dallas.
•   Conducted various analyses of data and selected a sample of 60 FDIC employees in the
    headquarters offices to ensure compliance with FDIC policies and procedures and transit
    subsidy benefits.
•   Compared DOT’s list of FDIC transit participants to the FDIC’s parking list to ensure that no
    individuals are receiving both benefits.
•   Reviewed the DOT’s 2006 payment list for FDIC employees to determine whether any FDIC
    employee received over the maximum IRS limit of $1,260.
•   Reviewed leave and travel records for 2006 for 20 randomly selected employees to determine
    if transit subsidy benefits were being reduced by any extensive leave taken by employees.
•   Reviewed both E-Bay and Craig’s List Web sites for evidence that FDIC employees were
    selling transit benefits. This problem was discovered by other government agencies when a
    review of transit subsidies was conducted. Although on the day we reviewed these Web
    sites, we did note 3 instances where individuals were selling Metro transit subsidy
    passes/tickets, we did not perform additional evaluation work to determine whether the
    advertisements involved FDIC or federal employees. It was decided that no further work


                                               13
                                                                                   APPENDIX I

   would be conducted in this area because of the cost of performing these tests and the limited
   risk that we would discover that the seller was an FDIC employee.

We performed various analyses of data to verify and confirm controls were in place and working
effectively. Specifically, we identified a universe of 647 FDIC employees from the Washington,
D.C. metropolitan area that were enrolled in the FDIC transit subsidy program for 2006. We
randomly selected from the universe a sample of 60 participants to review transit files
maintained by DOA for compliance with the FDIC’s policies and procedures. We reviewed
transit files to ensure that Form 3440/01, Application for Transit Subsidy, was properly prepared
by the applicant; addresses on the Application for Transit Subsidy agreed with addresses in
CHRIS; and transit benefits were properly computed by the applicant as well as reviewed and
approved by the TSC.




                                               14
     APPENDIX II




16
     APPENDIX II




17
                                                                                                                   APPENDIX III


                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management response to the recommendations in our report and the status of the recommendations as of the
date of report issuance.

 Rec.                                                                     Expected          Monetary     Resolved:a     Open or
Number           Corrective Action: Taken or Planned/Status            Completion Date      Benefits     Yes or No      Closedb
   1      DOA’s National Transit Subsidy Coordinator will revise
          the Transit Subsidy Directive to provide additional          March 31, 2008          $0            Yes          Open
          guidance and procedures to all transit coordinators.
   2      DOA’s National Transit Subsidy Coordinator has
          coordinated with the Human Resources Branch to utilize       March 31, 2008          $0            Yes          Open
          the CHRIS HR database to verify applicant addresses.
          This new process was implemented for headquarters at
          the end of November 2007. This process will be
          implemented for all applicants nationwide by the end of
          March 2008. Verification will be conducted on an annual
          basis as well as for each new applicant upon application.
   3
          DOA will conduct a semi-annual internal program review
                                                                       March 31, 2008          $0            Yes          Open
          every 6 months beginning in March 2008.
   4      DOA’s National Transit Subsidy Coordinator will, in
          conjunction with the semiannual review, provide              March 31, 2008          $0            Yes          Open
          employee awareness reminders to all participants.
   5      DOA’s National Transit Subsidy Coordinator will meet
          with the Dallas Regional Coordinator and develop             January 31, 2008        $0            Yes          Open
          additional protocols to ensure adequate separation-of-duty
          controls are implemented.




                                                                 18
                                                                                                                                               APPENDIX III


 Rec.                                                                                     Expected              Monetary        Resolved:a        Open or
Number                 Corrective Action: Taken or Planned/Status                      Completion Date          Benefits        Yes or No         Closedb
      6       DOA’s National Transit Subsidy Coordinator will meet
              with the Dallas Regional Coordinator to review fare                      January 31, 2008             $0              Yes             Open
              media accountability controls and take appropriate
              corrective action.
      7       DOA’s National Transit Subsidy Coordinator will meet
              with the Dallas Regional Coordinator to review                           January 31, 2008             $0              Yes             Open
              discrepancies and take appropriate corrective actions.

a
    Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
              as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               19
